OIG Investigative Reports Press Release Oxford, MS.,June 26, 2014 - Reading Consultant Sentenced for Paying Bribes to Former Greenville Superintendent
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
NORTHERN DISTRICT of MISSISSIPPI
NEWS
Reading Consultant Sentenced for Paying Bribes to Former Greenville Superintendent
FOR IMMEDIATE RELEASE
June 26, 2014
OXFORD, Miss. - Felicia C. Adams, United States Attorney for the Northern District of Mississippi, Mississippi State Auditor Stacey Pickering, and Yessyka Santana, Special Agent in Charge of the U.S. Department of Education Office of Inspector General's Southeastern Regional Office announced that:
Edna Goble, 67, of Asheville, North Carolina, pled guilty to one count of conspiracy to pay bribes in connection with federal program funds in violation of 18 U.S.C. § 371 and was sentenced on June 19 by United States District Judge Michael Mills in Oxford, Mississippi, to 30 months imprisonment.  Goble admitted to paying bribes and kickbacks to Harvey Franklin, the former superintendent of the Greenville Public School District, in connection with a contract for reading services between the Greenville Public Schools and Edna Goble’s company, Teach Them to Read, Inc. d/b/a Early Detection Necessary Action.  In addition, Goble was ordered to pay $1,041,432, joint and severally with Franklin, in restitution to the Department of Education, sentenced to 3 years supervised release following her term of imprisonment, and required to pay a $100 special assessment.
"Today’s action shows that Ms. Goble not only knowingly and willfully abused her position of trust for personal gain, but did so at the expense of the educational development of children. That is unacceptable," said Yessyka Santana, Special Agent in Charge of the U.S. Department of Education Office of Inspector General Southeastern Regional Office. “Deservedly, like her cohort-in-crime former superintendent Franklin, she will be held accountable for cheating Greenville's students."
“This is one of the more appalling cases that my Office has been involved in since I became State Auditor,” Auditor Pickering said. “Ms. Goble and Mr. Franklin worked together to cheat and steal from the students of Greenville, and I am glad both parties are being held accountable for their actions.
Felicia C. Adams, United States Attorney said, “The actions of Ms. Goble and Mr. Franklin harmed the integrity of our public school system and adversely impacted some of our more vulnerable citizens, the children of the Greenville Public School District.  When individuals abuse the public trust, our office will remain steadfast in prosecuting those individuals and ultimately ensuring that justice is served.”
This case was investigated by Special Agents of the Department of Education, Office of Inspector General and the Office of the State Auditor for the State of Mississippi and was prosecuted by the United States Attorney’s Office for the Northern District of Mississippi.
Top
Printable view
Last Modified: 07/01/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov